OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S
IMPLEMENTATION OF THE
MILLENNIUM CHALLENGE
CORPORATION’S
THRESHOLD PROGRAM
AUDIT REPORT NO. 9-000-09-010-P
August 12, 2009


WASHINGTON, DC
August 12, 2009

MEMORANDUM

TO:                  USAID/ODP, Director, Karen Turner
                     USAID/M/CFO, Chief Financial Officer, David Ostermeyer

FROM:                IG/A/PA, Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID’s Implementation of the Millennium Challenge
                     Corporation’s Threshold Program (Report No. 9-000-09-010-P)


This memorandum transmits our final report on the subject audit. We have considered
your comments on the draft report in finalizing the audit report and have included your
response in appendix II of the report.

The report contains two recommendations to improve USAID’s implementation of the
Millennium Challenge Corporation’s Threshold program. Based on your comments and
documentation provided, management decisions have been reached on
recommendations 1 and 2. On the basis of information provided by management in
response to the draft report, we determined that final action has been taken on
recommendation 2. The Audit Performance and Compliance Division will make a
determination of final action on recommendation 1 upon completion of the planned
corrective actions.

I appreciate the cooperation and courtesy extended to my staff during this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

     Audit Objective ............................................................................................................ 4

Audit Findings ................................................................................................................. 5

     Better Communication and Guidance Needed
     to Report Year-End Trial Balance Information
     to the Millennium Challenge Corporation .................................................................... 6

     USAID Should Conduct Data Quality Assessments
     for Threshold Program Indicator Data ......................................................................... 7

Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 12

Appendix III – USAID-Implemented Threshold Programs ......................................... 14
SUMMARY OF RESULTS
The Millennium Challenge Corporation (MCC) is a U.S. Government corporation
established by Congress to further global development by promoting economic growth,
eliminating extreme poverty, and strengthening good governance, economic freedom,
and investments in people. Under the Threshold program, MCC provides limited funding
to help countries address weaknesses that may be preventing them from obtaining
large-scale MCC assistance. Congress authorized MCC to direct up to 10 percent of
total MCC funds to the Threshold program (see page 3).

In cooperation with MCC, USAID is the primary agency implementing the Threshold
program, and the Office of Development Partners is responsible for the overall
management of the program. USAID’s participation has expanded rapidly, from zero
countries in September 2004 to 18 countries in December 2008, and it has obligated
about $431.5 million as of December 31, 2008. This audit was conducted to determine if
USAID was implementing MCC’s Threshold program in accordance with applicable
policies, regulations, and memorandums of agreement (see pages 3 and 4).

In some areas, USAID has implemented the Threshold program in accordance with
applicable polices and regulations, and is effectively fulfilling the responsibilities
contained in a memorandum of agreement with MCC. For example, USAID provided
useful assistance to develop various countries’ Threshold plans, completed host nation
agreements within established timeframes, and efficiently integrated Threshold program
activities into existing mission operations (see pages 5 and 6).

In two areas, however, USAID’s efforts were less successful. First, USAID did not submit
fourth quarter final trial balances on time or notify MCC of subsequent adjustments to
reported final trial balances, which created a $5.2 million discrepancy in MCC’s financial
statements and contributed to a material weakness related to MCC quality control over
financial reporting (see page 6). Second, data quality assessments for the Threshold
programs were not always performed, reducing the reliability of reported data (see page
7). This report contains two recommendations to address these concerns.

This report recommends that USAID’s Office of Development Partners:

•   In conjunction with the Chief Financial Officer, meet with the Millennium Challenge
    Corporation to amend the memorandum of agreement to require USAID to contact
    the Millennium Challenge Corporation when any fourth quarter year-end adjustment
    is made and to establish a due date for USAID to provide all year-end adjustments to
    the final trial balances (see page 7).

•   Develop guidance that requires data quality assessments be conducted at an
    appropriate point during Threshold program implementation (see page 8).

USAID’s Office of Development Partners and Chief Financial Officer agreed with the
recommendations in the draft audit report. To address the first recommendation, USAID
met with and has reached an agreement in principle with MCC as to dates that USAID
will provide MCC with the required financial information for the fiscal year 2009 end-of-
the-year closing that will be acceptable to both parties, and intends to revise the


                                                                                        1
memorandum of agreement in the near future to reflect the agreed-upon dates (see
pages 12 and 13).

To address the second recommendation, USAID has transmitted written guidance to the
field to perform data quality assessments for MCC Threshold programs only once during
the program, approximately 6 months into the normally short 2-year program (see page
13).

Management decisions have been reached on recommendations 1 and 2. On the basis
of information provided by management in response to the draft report, final action has
been taken on recommendation 2. The Audit Performance and Compliance Division will
make a determination of final action on recommendation 1 upon completion of the
planned corrective actions. An evaluation of management comments is provided in the
Evaluation of Management Comments section of this report (see page 9). Management
comments are presented in their entirety in appendix II (see pages 12 and 13).




                                                                                     2
BACKGROUND
The Millennium Challenge Corporation (MCC), a U.S. Government corporation, was
established by the Millennium Challenge Act of 2003 (Public Law 108-199, Division D,
Title VI). Most MCC assistance is distributed as part of multiyear agreements that fund
large antipoverty programs. To be eligible for MCC assistance, a country must
demonstrate a commitment to policies that promote such goals as ruling justly, investing
in people, and encouraging economic freedom, as measured by 17 indicators.
Countries that have demonstrated significant commitment but do not yet qualify for
assistance may be selected for MCC’s Threshold program.

Under the Threshold program, MCC provides limited funding to help address specific
weaknesses that may be preventing countries from receiving MCC assistance.
Congress authorized MCC to direct up to 10 percent of total MCC funds to the Threshold
program. USAID’s participation has expanded rapidly, from zero countries in September
2004 to 18 countries in December 2008.

In addition, USAID’s participation has facilitated MCC’s expansion of the Threshold
program to include follow-on Stage II Threshold programs. These programs are for
countries whose Threshold programs are ending but that (1) have yet to meet the MCC’s
eligibility criteria, (2) have successfully implemented their current Threshold program,
and (3) continue to pursue a policy reform agenda. USAID/Albania is currently
implementing the first approved Stage II program on behalf of MCC, a $15.7 million
effort to support anticorruption activities and enhance the rule of law. The Stage II
program will bring the total for USAID-implemented Threshold programs to about $431.5
million (see appendix III).

For the Threshold programs that USAID implements, USAID’s responsibilities are
defined through a series of memorandums of agreement with MCC, one for each fiscal
year of funding since 2004. Under these agreements, USAID has been responsible for
such activities as:

   •   assisting with the review and evaluation of country plans that will achieve
       program objectives,

   •   working with Threshold countries to identify appropriate implementing partners,

   •   providing oversight for the implementation activities, and

   •   accounting for the disbursement of funds.

In addition to directing up to 10 percent of total MCC funds to the Threshold program,
MCC compensates USAID for the cost of administering this program through a transfer
of an administrative fee equal to 7 percent of the Threshold program funding. Threshold
programs are implemented through individual USAID missions. USAID’s Office of
Development Partners coordinates implementation with MCC and develops needed
operational policies and practices for the implementation of the Threshold program. The
Office of Development Partners also guides the development of Agency strategies and
programs to ensure that they are complementary to the goals of MCC.


                                                                                         3
As noted in the Office of Management and Budget (OMB) guidance, while MCC may
delegate part or all of its work to other agencies, MCC still has full responsibility for the
program and its outputs. Consistent with these responsibilities, in September 2008,
MCC initiated a 22-month effort to review the first six Threshold programs to determine,
among other things, the programs’ results and the extent to which intended outcomes
were achieved. To avoid duplicating these efforts, this audit focused primarily on
USAID’s efforts to manage the Threshold program in compliance with applicable
policies, regulations, and memorandums of agreement.

AUDIT OBJECTIVE
This audit was included in the Office of Inspector General’s fiscal year 2008 annual plan
and was conducted to answer the following question:

   •   Is USAID implementing the Millennium Challenge Corporation’s Threshold
       program in accordance with applicable policies, regulations, and memorandums
       of agreement?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                           4
AUDIT FINDINGS
In some areas, USAID has implemented the Millennium Challenge Corporation’s
(MCC’s) Threshold program in accordance with the applicable polices and regulations
and is effectively fulfilling the responsibilities contained in a memorandum of agreement
with MCC. In other areas, however, USAID’s efforts have been less successful and
corrective action is needed.

According to USAID’s Automated Directives System (ADS) 596.2.k, Agency managers
should, among other things, ensure that the quality and timeliness of program
performance and programs are managed with integrity and in compliance with applicable
law. From October 2004 through December 2008, USAID developed, implemented, and
refined guidance and procedures to meet these requirements when carrying out the
Threshold program implementation responsibilities contained in USAID’s memorandums
of agreement with MCC. Examples of such initiatives are discussed below:

USAID provided useful assistance to support Threshold plan development –
Before implementing a Threshold program, countries must submit to MCC a plan that
includes the program’s specific goals and objectives, performance benchmarks,
sustainability, donor coordination, and a detailed budget. Although USAID respects the
principle of “country ownership,” it has provided effective technical assistance upon
request to help government counterparts develop their country plans. For example, in
2005, after the Government of Kenya’s initial country plan did not receive MCC support,
USAID/Kenya officials worked with their Government of Kenya counterparts to refine the
plan by focusing on manageable objectives and responding to MCC’s specific questions
and concerns. As the plan progressed, the mission hired a technical assistance advisor
to help review and finalize the document in preparation for MCC reconsideration. As a
result of this assistance, in February 2007, MCC approved the revised country plan,
which seeks to reduce corruption through procurement reform and improved health care
delivery.

USAID developed timely agreements with host governments to support Threshold
plan implementation – According to its initial memorandum of agreement with MCC,
USAID, in consultation with MCC, will negotiate agreements with each country to
support the implementation of approved Threshold plans. According to MCC officials,
USAID missions have, with rare exceptions, completed the necessary agreements within
established timeframes. For example, upon being tasked with the project in August
2006, the legal advisor at USAID/Jordan consulted with other missions that had
experience in developing MCC Threshold agreements, drafted a document with
appropriate conditions, and sent the draft document for MCC’s review. As a result of
these efforts, the mission completed the negotiations with the Government of Jordan in
time for the Threshold program signing ceremony in October 2006.

USAID developed an effective management structure to support Threshold
program implementation – USAID has given missions the flexibility to efficiently
integrate Threshold program activities into ongoing mission activities while retaining an
appropriate oversight role and has allowed the missions to discuss program
implementation with MCC. Missions are encouraged to integrate Threshold program
activities into ongoing operations in order to best support the mission’s existing
development initiatives. USAID/Jordan, for example, integrated Threshold program
activities into its existing Democracy and Economic Growth strategic objectives.


                                                                                       5
USAID/Kenya, on the other hand, created a new strategic objective to accommodate the
Threshold program.

USAID’s management efforts have allowed the Agency to establish its role as the
primary implementation partner in support of MCC’s Threshold program, but some
improvements are needed, as noted in the two areas described below.

Better Communication and Guidance Needed
to Report Year-End Trial Balance Information
to the Millennium Challenge Corporation

 Summary: According to the fiscal year (FY) 2008 memorandum of agreement,
 USAID should provide fourth quarter final trial balances to MCC no later than 16
 calendar days after the end of the reporting period in order for MCC to report all
 Threshold program budgetary and proprietary activity in its financial statements.
 However, USAID did not submit fourth quarter final trial balances on time or notify
 MCC of subsequent adjustments to reported final trial balances in a timely manner.
 USAID and MCC financial officials did not effectively communicate and coordinate
 with each other, and the memorandum of agreement did not provide guidance for
 when year-end adjustments to trial balances occurred after the 16-day reporting
 deadline. These communication problems created a $5.2 million discrepancy in
 MCC’s financial statements and contributed to a material weakness related to MCC’s
 quality control over financial reporting.


OMB Circular A-136, Financial Reporting Requirements, states that reporting entities
should ensure that information in the financial statements is presented in accordance
with generally accepted accounting principles and that the preparation of the annual
financial statement is the responsibility of agency management. The Circular requires
that all costs be consolidated in the parent’s (i.e., MCC) financial statements in order to
provide a complete cost of the parent’s program. Effective in FY 2007, the parent must
report all budgetary and proprietary activity in its financial statements, whether material
to the child (i.e., USAID) or not. According to the Circular, receiving agencies (e.g.,
USAID) with transfer appropriation accounts must submit a full trial balance with
attributes to the parent no later than 12 calendar days following the end of the reporting
period or a date required by the parent to meet its reporting and auditing deadlines,
whichever comes first. The FY 2008 memorandum of agreement between USAID and
MCC requires USAID to provide MCC final trial balances no later than 16 calendar days
after the end of the reporting period. MCC is required to incorporate USAID’s fourth
quarter final trial balances and adjustments into its financial statements to ensure
complete and accurate financial reporting.

This problem occurred for three reasons. First, USAID and MCC financial officials did
not effectively communicate and coordinate with each other. USAID officials stated that
although OMB guidance indicates that they should make every effort to provide the
required information to MCC and notify MCC of subsequent changes to reported trial
balances, it is ultimately MCC’s responsibility to take full ownership of its financial
statements. USAID officials believed that MCC should have contacted USAID to discuss
adjustments that frequently occur at year-end and verify final trial balance information
prior to submitting financial statements.




                                                                                         6
Second, according to a USAID official with the Office of Chief Financial Officer, Central
Accounting and Reporting Division, the guidance in the OMB Circular contributed to the
lack of communication between USAID and MCC officials. While the parent (i.e., MCC)
is responsible for its financial statements and is ultimately responsible for the reporting of
the child (i.e., USAID), the Circular states that the child should make every reasonable
effort to provide the required information. For example, if a child agency needs to make
a subsequent change to a reported trial balance, it is the child’s responsibility to notify
the parent at the earliest opportunity. The Circular states that the key to timely and
accurate quarterly reporting by the child agency is communication between the parent
and child.

Third, the memorandum of agreement does not provide officials guidance when year-
end adjustments to trial balances occur after the 16-day reporting deadline. Despite
having met on several occasions between September 2007 and October 23, 2008, to
discuss reporting difficulties, USAID and MCC signed a new memorandum of agreement
for FY 2009 in March 2009 with no additional clarification of necessary adjustments to
the year-end trial balance. On the other hand, USAID and the USAID Office of Inspector
General have established a due date for the Office of Inspector General to provide its
audit adjustments on October 26, 2009.

The failure of USAID and MCC officials to effectively coordinate with year-end
adjustments to the final trial balances created a $5.2 million discrepancy in MCC’s
financial statements and a statement in the Inspector General for the MCC’s FY 2008
financial statement audit report that USAID’s reporting delays contributed to a material
weakness related to MCC’s quality control over financial reporting.

To ensure that this issue continues to receive the appropriate management attention,
this audit makes the following recommendation:

       Recommendation 1: We recommend that the Office of Development Partners, in
       conjunction with the Chief Financial Officer, meet with the Millennium Challenge
       Corporation to amend the memorandum of agreement to require USAID to
       contact the Millennium Challenge Corporation when any fourth quarter year-end
       adjustment is made and to establish a due date for USAID to provide all year-end
       adjustments to the final trial balances.

USAID Should Conduct Data Quality Assessments
for Threshold Program Indicator Data
In 2006, MCC and USAID developed implementation results reporting tables that
included specific performance indicators and results for each mission. These tables
provide senior management at MCC and USAID with a quick snapshot of Government
progress on the overall Threshold program. In addition, MCC has shared these tables
with interagency board representatives in order to demonstrate progress, serve as a
source for discussion on the Threshold program’s status, and inform its decision to
approve follow-on programs.

According to ADS 203.3.5.2, periodic data quality assessments are required to ensure
that USAID missions are aware of the strengths and weaknesses of the data and the
extent to which the data integrity can be trusted to influence management decisions.
Data reported to USAID/Washington for reporting externally on Agency performance
must have had a data quality assessment at some time within the 3 years before


                                                                                            7
submission. However, the MCC Threshold program indicator data may not be subjected
to data quality assessments during the program lifetime.

In Kenya, for example, officials noted that the MCC Threshold indicators were not
included in the data quality assessment effort because the indicators had not yet
generated sufficient data; as the next planned assessment will be in 3 years, the
program probably will not have its indicators assessed. However, USAID/Jordan
officials stated that the Threshold program indicators were included in an upcoming
assessment, primarily because the timing of the assessment happens to coincide with
the program implementation schedule. As noted during a recent Office of Inspector
General for the MCC audit 1 in Albania, no data quality assessments took place during
the program’s 2-year period of implementation.

Data quality assessments of Threshold program indicator data are not always performed
because the Office of Development Partners has issued no guidance as to whether
these indicators must be included in mission-wide data quality assessment efforts.
Without such an assessment, USAID and MCC have limited information about the
strengths and weaknesses of the data and the extent to which the data can be trusted
when used to support management decisions. To correct this situation, this audit makes
the following recommendation:

       Recommendation 2: We recommend that the Office of Development Partners
       develop guidance that requires data quality assessments be conducted at an
       appropriate point during Threshold program implementation.




1
 Audit of the Millennium Challenge Corporation’s Management of the Threshold Program, Audit
Report No. M-000-09-003-P, April 29, 2009.


                                                                                         8
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s Office of Development Partners and Chief Financial Officer agreed with the
recommendations in the draft audit report, and management decisions have been
reached on recommendations 1 and 2 as described below:

   •   In response to recommendation 1, USAID has met with and has reached an
       agreement in principle with MCC as to dates for the fiscal year (FY) 2009 end of
       the year closing that will be acceptable to both parties and intends to revise the
       memorandum of agreement in the near future to reflect the following due dates.
       First, USAID will give MCC trial balances by COB October 16, and USAID Office
       of Inspector General will provide recommended adjustments by COB October 29.
       Second, USAID will also inform MCC if, before the close of the revision period on
       November 13, USAID is required to adjust trial balances that have been provided
       to MCC or to reflect Office of Inspector General recommended adjustments. In
       each case, USAID will inform MCC as soon as it knows of a change, but no later
       than the days indicated.

   •   In response to recommendation 2, the Office of Development Partners has
       transmitted written guidance to the field on February 29, 2009, to perform data
       quality assessment for MCC Threshold programs only once during the program,
       approximately 6 months into the normally short 2-year program.

Accordingly, based on comments received from the two offices, management decisions
have been reached on recommendations 1 and 2. On the basis of information provided
by management in response to the draft report, we determined that final action has been
taken on recommendation 2. The Audit Performance and Compliance Division will make
a determination of final action on recommendation 1 upon completion of the planned
corrective actions.

Management comments are presented in their entirety in appendix II of this report.




                                                                                       9
                                                                          APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Performance Audits Division conducted this performance audit in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The audit objective was to determine if USAID
was implementing the Millennium Challenge Corporation (MCC) Threshold program in
accordance with applicable memorandums of agreement and USAID policies.

In planning and performing the audit, we assessed management controls related to the
development, implementation, use, and review of USAID activities to support MCC
Threshold program implementation. These controls included complying with USAID and
the Office of Management and Budget guidance regarding management of programs on
behalf of other Federal agencies, and USAID’s commitments under various
memorandums of agreement.           Specifically, we reviewed (1) memorandums of
agreement between USAID and MCC for fiscal years (FYs) 2004 through 2009;
(2) Agency and mission guidance related to internal controls, the implementation of
memorandums of agreement, and performance measures; and (3) USAID’s FY 2008
Federal Managers’ Financial Integrity Act process and results.

To allow for a detailed evaluation of the adequacy of USAID’s management activities, we
reviewed and verified performance and implementation data at two overseas locations:
USAID/Jordan and USAID/Kenya. We conducted the audit at USAID/Washington from
September 9, 2008, through June 9, 2009, and at various site locations in Jordan and
Kenya from October 27 to November 21, 2008. We also coordinated our work with the
Office of Inspector General for the MCC.

Methodology
To determine whether USAID’s management activities were ensuring that intended
results were achieved, the audit team interviewed USAID’s staff in the Office of
Development Partners to gain an understanding of the program history and status. We
also met with MCC officials and obtained documentation regarding USAID’s efforts to
appropriately manage the Threshold program and fulfill their obligations under the
memorandums of agreement.

To evaluate the Office of Development Partners’ management of the Threshold program
implementation process, we reviewed and evaluated memos, e-mail correspondence,
and other documentation related to USAID’s implementation of the Threshold program in
various countries. We also collected and evaluated the general guidance that USAID’s
Office of Development Partners had distributed to all participating missions. To
determine the adequacy of this guidance, we reviewed documents related to the
development of Threshold country programs and host country agreements, as well as
the efforts to incorporate Threshold programs into standard mission operations. We
gathered and analyzed financial reporting information for the period FYs 2005–2009


                                                                                    10
                                                                             APPENDIX I

to determine the accuracy and timeliness of such reporting. We also reviewed and
extracted examples of efforts by USAID staff to reconcile account balances and
eliminate reporting errors.

To provide a more detailed assessment of implementation efforts by USAID missions,
we conducted site visits and reviewed Threshold program implementation at
USAID/Kenya and USAID/Jordan.            We interviewed mission staff and reviewed
appropriate documents to determine if Threshold programs were being implemented in
accordance with appropriate guidance. We also verified reported progress related to
these outputs during site visits and interviews with the implementing partner staff, local
officials, and beneficiaries. The audit team also tested a judgmental sample of outputs
under each project and compared reported progress related to these outputs during site
visits and interviews with each implementing partner. Based on the collective results,
the team determined the progress of each project toward the achievement of planned
outputs. We used this determination to help evaluate USAID’s overall success in
managing the Threshold program. We did not select a materiality threshold because
such a threshold was not relevant to this audit.




                                                                                       11
                                                                             APPENDIX II


MANAGEMENT COMMENTS



                                                                            July 17, 2009

FROM:          OD/ODP – Karen D. Turner /S/
               M/CFO – David Ostermeyer /S/

TO:            IG/A/PA – Steven H. Bernstein

SUBJECT:       Audit of USAID’s Implementation of the Millennium Challenge
               Corporation’s Threshold Program

Following are USAID’s comments on the two recommendations contained in the subject
report:

Recommendation No 1: We recommend that the Office of Development Partners, in
conjunction with the Chief Financial Officer, meet with the Millennium Challenge
Corporation to amend the memorandum of agreement to require USAID to contact the
Millennium Challenge Corporation when any fourth quarter year-end adjustment is made
and to establish a due date for USAID to provide all year-end adjustments to the final
trial balances.

Response:

USAID accepts the recommendation and has reached an agreement in principle with
MCC as to dates for the FY 2009 end of year closing that will be acceptable to both
parties. We intend to revise the Memorandum of Agreement (MOA) in the near future to
reflect the following due dates:

•   USAID will give MCC trial balances that are consistent with what USAID has entered
    into FACTS II by COB October 16. This is two days before the FACTS II window
    closes on October 19.

•   If USAID’s IG requires it to adjust its trial balances, USAID, having already provided
    MCC with trial balances that are consistent with what it has entered into FACTS II,
    will submit revised trial balances that reflect USAID IG’s recommended adjustments
    by COB October 29. This is three days after USAID’s IG is supposed to provide
    them, which is October 26.




                                                                                         12
                                                                             APPENDIX II

•   If USAID is required to adjust its FACTS II trial balances during the FACTS II revision
    period, USAID--having already given MCC trial balances that are consistent with
    what it has entered into FACTS II and that reflect USAID IG’s recommended
    adjustments, if any--will submit revised trial balances that reflect any changes made
    in FACTS II revision period, which closes on November 13.

In each case USAID will inform MCC as soon as it knows of a change but no later than
the days indicated.

Recommendation No. 2: We recommend that the Office of Development Partners
develop guidance that requires data quality assessments be conducted at an
appropriate point during Threshold program implementation.

USAID accepts the recommendation and requests that it be closed upon issuance, for
the following reason:

•   ODP/MCC transmitted written guidance to the field on February 29 on the
    preparation of Results Reporting Tables (RRTs) for MCC Threshold programs. The
    guidance, which is appended as Attachment 1 to this memorandum, contains the
    following statement:

       Data Quality Assessments: Ensuring the quality of underlying data is essential
       to maintaining a high level of confidence in decisions based upon it. Data quality
       assessments (DQAs) should review the quality and integrity of the RRT by taking
       a close look at aspects such as the quality of data storage, collection
       instruments, and procedures; sampling methods; and data storage. DQAs should
       be performed by an independent entity, such as a local or international
       specialized firm or consultant. Given their normally short (two-year) timeframe,
       DQAs on Threshold programs should generally take place only once,
       approximately six months into the program.




                                                                                        13
                                                                                      APPENDIX III


                          USAID-Implemented Threshold Programs
                                 (as of December 31, 2008)

                        Host Country
                                           Total Obligation                    Main Program
       Country           Agreement
                                              (Dollars) 2                         Focus
                            Date

    BURKINA FASO            7/22/05          12,900,000                        Girls’ Education

    MALAWI                  9/29/05          20,920,000                    Control Corruption

    ALBANIA                 4/3/06            13,850,000                   Control Corruption

    TANZANIA                5/3/06           11,150,000                    Control Corruption

    PARAGUAY                5/8/06           34,645,092                    Regulatory Quality

    ZAMBIA                  5/22/06          22,735,000                    Control Corruption

    PHILIPPINES             7/26/06          20,685,000                    Control Corruption

    JORDAN                 10/17/06          25,000,000                    Democracy/Trade
                                                                           Control Corruption/
    INDONESIA              11/17/06          55,000,000
                                                                         Improve Immunization
    UKRAINE                 12/4/06          44,970,000                    Control Corruption

    MOLDOVA                12/14/06          24,700,000                    Control Corruption

    KENYA                   3/23/07          12,723,000                    Control Corruption

    UGANDA                  3/29/07          10,446,180                    Control Corruption
                                                                             Fiscal Policy/
    GUYANA                  8/23/07            6,711,000
                                                                         Business Environment
    KYRGYZ
                            3/14/08          15,994,000                    Control Corruption
    REPUBLIC
    NIGER                   3/17/08          23,066,914            Girls’ Education/Control Corruption
                                                                          Control Corruption/
    PERU                     6/9/08          35,585,000
                                                                        Improve Immunization
                                                                         Strengthen Judiciary/
    RWANDA                  9/29/08          24,730,000
                                                                   Promote Civil Society and Liberties
                                                                          Control Corruption/
    ALBANIA II              9/29/08          15,731,000
                                                                             Tax Reform


      TOTAL                                  $431,542,186




2
    Obligations reported by the Office of Development Partners, not audited.


                                                                                                  14
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
